No.
IN RE: NAVY CHAPLAINCY,
CHAPLAINCY OF FULL GOSPEL CHURCHES, ET AL.,
Petitioners,

v.
UNITED STATES NAVY, ET AL.,
Respondents.

AFFIDAVIT
On this 14th day of June, 2021, I, Anthony G. Lantagne, hereby certify that this
Petition for Writ of Certiorari was sent this same day via First Class, Certified mail, to
the Supreme Court of the United States. I further certify that I have served by First
Class mail and email this same date the required copies to the parties listed below:
Elizabeth Prelogar
Acting Solicitor General
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ .gov
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 14th day of June, 2021.

Ant ny
Lan
e Le
mg, Inc.
801 E. Main Street, Suite 100
Richmond, Virginia 23219
(804) 644-04 77
COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)
)

to-wit:

Richard Markell appeared before me this 14th day of
the foregoing affidavit is true and exact to e best his k

